  December 10, 2002




Financial Management

Adjustments to the
Intergovernmental Payments
Account
(D-2003-034)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN664-8937) or fax
  (703) 604-8932.
  Suggestions for Future Audits
  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:
                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704
  Defense Hotline
  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
FBWT                  Fund Balance With Treasury
GAO                   General Accounting Office
IG DoD                Inspector General of the Department of Defense
         Office of the Inspector General of the Department of Defense
Report No. D-2003-034                                                December 10, 2002
  (Project No. D2001FD-0192.000)

        Adjustments to the Intergovernmental Payments Account

                                   Executive Summary

Who Should Read this Report and Why? Accounting personnel responsible for
reconciling suspense accounts and adjusting closed appropriations should read this
report. The report discusses the need for documentation to support adjustments to
closed appropriations.

Introduction. We performed the audit in support of our annual audits on the Fund
Balance With Treasury account (an asset account) and the DoD Agency-Wide Financial
Statements. The financial statement audits are required by the Chief Financial Officers
Act of 1990, as amended by the Federal Financial Management Act of 1994, and the
Federal Financial Management Improvement Act of 1996. The FY 2001 DoD Agency-
Wide Financial Statements reported total assets of $707.2 billion, including
$190.1 billion in the Fund Balance With Treasury account.

This report focuses on improper adjustments to clearing account F3885, Undistributed
Intergovernmental Payments. Account F3885 (the intergovernmental payments
account) contains transactions that are not posted (distributed) to DoD appropriations in
the DoD financial accounting records. As of February 28, 2002, the DoD had a
combined $798.2 million balance in the intergovernmental payments accounts of the
Army, Navy, Air Force, and Defense agencies. The Navy accounted for
$732.4 million (91.8 percent) of the balance.

Results. DFAS Cleveland and the Navy improperly approved adjustments totaling
$65.9 million and processed $53.3 million in adjustments from the intergovernmental
payments account to closed Navy appropriations without sufficient supporting
documentation. Without sufficient documentation, the adjustments should not have
been approved and are, therefore, improper. Also, DFAS Cleveland did not identify
adjustments from the intergovernmental payments account to closed appropriations
within its assessable units and therefore, did not identify the material management
control weakness identified by the audit. The adjustments to closed Navy
appropriations were improper, and reflect an overall weakness in the control
environment for the DoD Fund Balance With Treasury account.

Improved guidance will assist accounting personnel in determining the minimum
documentation that they can accept as support for adjustments to closed appropriations.
The guidance should describe the documentation required to identify the proper
expenditure account, the responsible fund holder, and the payment date. The guidance
should also include a flowchart mapping the decisions and documents required to adjust
closed accounts referenced to specific paragraphs in the guidance. Management should
expand its self-evaluations of management controls to cover adjustments to closed
appropriations to provide the oversight and improvement these issues require.

Management Comments. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer concurred and agreed to revise the DoD Financial Management
Regulation to describe the documentation required to identify the proper expenditure
account, the responsible fund holder, and the payment date, and to include a flowchart
mapping the decisions and documents required to adjust closed accounts. The Acting
Director, Defense Finance and Accounting Service Cleveland concurred and agreed to
revise standard operating procedures to clarify the supporting documentation required
to identify the proper appropriation for adjustments and to add examples of
documentation, based on coordination with the Office of the Assistant General Counsel,
to identify the appropriation for transactions in suspense accounts. The Acting Director
also agreed to reverse the transactions posted to closed appropriations back to account
F3885 and to evaluate the adjustments process for the FY 2003 Annual Statement of
Assurance. See the Management Comments section for the complete text of the
management comments.




                                           ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     3

Finding
     Adjustments to the Intergovernmental Payments Account                     4

Appendixes
     A. Scope and Methodology                                                 12
            Management Control Program Review                                 13
     B. Prior Coverage                                                        14
     C. Statement of Transactions, Statement of Interfund Transactions, and
          the Fund Balance With Treasury Account                              16
     D. U.S. Treasury and DoD Guidance for the Intergovernmental
          Payments Account                                                    17
     E. Comptroller General Decision and DoD Guidance for Closed
          Accounts                                                            19
     F. Report Distribution                                                   23

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer         25
     Defense Finance and Accounting Service                                   27
Background
           We performed the audit in support of our annual audits on the Fund Balance
           With Treasury (FBWT) account (an asset account)1 and the DoD Agency-Wide
           Financial Statements. The financial statement audits are required by Public
           Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990,
           as amended by Public Law 103-356, the “Federal Financial Management Act
           of 1994,” October 13, 1994, and Public Law 104-208, the “Federal Financial
           Management Improvement Act of 1996,” September 30, 1996. The FY 2001
           DoD Agency-Wide Financial Statements reported total assets of $707.2 billion,
           including $190.1 billion in the FBWT account.
           The overall audit objective was to assess controls over the collections and
           disbursements reported to the Defense Finance and Accounting Service (DFAS)
           centers and the Department of the Treasury. This report focuses on improper
           adjustments to clearing account F3885, Undistributed Intergovernmental
           Payments. Account F3885 (the intergovernmental payments account) contains
           transactions that are not posted (distributed) to DoD appropriations in the DoD
           financial accounting records. As of February 28, 2002, the DoD had a
           combined $798.2 million balance in the intergovernmental payments accounts of
           the Army, Navy, Air Force, and Defense agencies. The Navy accounted for
           $732.4 million (91.8 percent) of the $798.2 million balance in the DoD
           intergovernmental payments accounts.

           As discussed in our November 2001 report on the FBWT account,2 the
           Department of the Treasury makes disbursements and collections for most
           Federal agencies. Congress provided disbursement authority to DoD under
           section 3321, title 31, United States Code (31 U.S.C. 3321). DoD established
           disbursing stations to handle funds from the Department of the Treasury.

           Disbursing Stations. The disbursing stations are authorized to make deposits,
           initiate interagency transfers, and issue U.S. Treasury Checks. Disbursing
           stations are accountable to the Department of the Treasury for their
           disbursements and collections. Each disbursing station is required to prepare
           the following reports monthly.




1
    Statement of Federal Financial Accounting Standards No. 1, “Accounting for Selected Assets and
    Liabilities,” March 30, 1993, defines a Federal entity’s Fund Balance With Treasury account as the
    aggregate amount of funds in the entity’s accounts with the Department of the Treasury from which the
    entity is authorized to make expenditures and pay liabilities.
2
    IG DoD Report No. D-2002-019, “Checks Issued Differences for Deactivated Disbursing Stations,”
    November 28, 2001.


                                                     1
                        •    SF 1219, “Statement of Accountability,” reports information to
                             the Department of the Treasury on deposits,3 interagency
                             transfers, 4 and checks issued. The Statement of Accountability
                             also reports net disbursements—the sum of the deposits,
                             interagency transfers, and checks issued that month.

                        •    SF 1220, “Statement of Transactions,” reports the disbursements
                             shown on the Statement of Accountability by appropriation. The
                             Department of the Treasury requires that the net disbursements
                             reported on the Statement of Transactions agree with the net
                             disbursements reported on the Statement of Accountability.

           Finance Centers. The DoD finance centers make intergovernmental payments
           through the Interfund Billing System.5 The finance centers report
           intergovernmental payments made through the Interfund Billing System on the
           DD Form 1400, “Statement of Interfund Transactions.” The Statement of
           Interfund Transactions reports intergovernmental payments, made through the
           Interfund Billing System, by appropriation. (See Appendix C for a discussion
           of the Statement of Transactions, the Statement of Interfund Transactions, and
           the Fund Balance With Treasury account.)

           Disbursing Activity. During FY 2001, DoD disbursing stations and finance
           centers made $341.9 billion of disbursements, including disbursements made
           through electronic funds transfer ($256.3 billion), interagency transfers
           ($31.1 billion), checks issued ($31.1 billion), and intergovernmental
           payments ($23.4 billion).

           The Statements of Transactions and the Statements of Interfund Transactions
           include entries to “clearing accounts” that receive payments with invalid or
           incorrect fund citations. (See Appendix D for a discussion of Department of the
           Treasury and DoD guidance on the use of the intergovernmental payments
           account.)




3
    The Statement of Accountability reports deposits and electronic funds transfers as a combined total.
4
    Interagency transfers are made through the On-line Payment and Collection (OPAC) system and the
    SF-1080, “Voucher for Transfer Between Appropriations and/or Funds.” Beginning in May 2001, the
    Department of the Treasury began replacing the OPAC system with the Intra-governmental Payment
    and Collection system.
5
    The Interfund Billing System includes supply system sales and purchases of material, including
    perishable subsistence and fuels, between the Army, Navy, Air Force, and Defense agencies.


                                                      2
Objectives
     The overall audit objective was to assess controls over the collections and
     disbursements reported to DFAS centers and the Department of the Treasury.
     This report focuses on the objective as it applies to adjustments of the
     intergovernmental payments account. We also reviewed the adequacy of the
     management control program as it applied to the audit objective. Appendix A
     discusses the audit scope and methodology and the review of the management
     control program, and Appendix B lists prior audits related to the objectives.




                                        3
           Adjustments to the Intergovernmental
           Payments Account
           DFAS Cleveland and the Navy improperly approved adjustments totaling
           $65.9 million and processed $53.3 million in adjustments from the
           intergovernmental payments account to closed Navy appropriations
           without sufficient documentation to support the adjustments. Without
           sufficient documentation, the adjustments should not have been approved
           and are, therefore, improper. The improper approvals might not have
           occurred if DoD Regulation 7000.14-R, the “DoD Financial
           Management Regulation,” volume 3, chapter 11, “Unmatched
           Disbursements, Negative Unliquidated Obligations, In-transit
           Disbursements, and Suspense Accounts,” January 2001; and DFAS
           Cleveland Standard Operating Procedure 7310.05, “Closed
           Appropriation Transaction Processing,” October 25, 2001, had more
           clearly and specifically described the documentation required to support
           adjustments from the intergovernmental payments account to closed
           appropriations. In addition, DFAS Cleveland Procedure 7310.05 did not
           require DFAS Cleveland accountants to coordinate with the Office of
           Assistant General Counsel, DFAS Cleveland, to determine the propriety
           of adjustments to closed appropriations. Also, DFAS Cleveland did not
           identify adjustments from the intergovernmental payments account to
           closed appropriations within its assessable units, and therefore, did not
           identify the material management control weakness identified by the
           audit. The adjustments to closed Navy appropriations were improper and
           reflect an overall weakness in the control environment for the DoD
           FBWT account.



Appropriation Accounting
    The Congress generally provides budget authority to an agency for obligation
    during a specific period, referred to as the period of availability. During this
    period of availability, the agency may incur new obligations and charge them
    against the appropriation. After the period of availability, the appropriation
    may not be used to incur new obligations.

    United States Code (31 U.S.C. 1551-1558). Chapter 15, subchapter IV,
    “Closing Accounts,” of title 31, United States Code, establishes Federal law
    regarding the closing of appropriation accounts. Subchapter IV states that after
    the period of availability for obligation, the account remains available for
    5 years for recording, adjusting, and making disbursements to liquidate
    obligations that were properly chargeable to the account. At the end of the
    5-year period, the appropriation account closes, and any remaining obligated
    and unobligated balances are canceled. The closed appropriation account is not
    available for obligation or expenditure for any purpose. After an account
    closes, obligations and adjustments to obligations that would have been properly


                                         4
           chargeable to the account before closing may be charged to current
           appropriations available for the same purpose. However, the charges may not
           exceed one percent of the total appropriations for that account. Section 1556
           requires the Comptroller General to report on appropriations, closing
           appropriation accounts, and unpaid obligations for which the period of
           availability for obligation has ended to the head of the agency, the Secretary of
           the Treasury, and the President. In July 2001 and June 2002, the General
           Accounting Office (GAO) reported its most recent reviews on closed DoD
           appropriations.6

           Comptroller General. The Comptroller General has decided that an agency
           may adjust its accounting records of closed appropriation accounts to correct
           errors.7 For example, an agency may adjust its accounting records to record
           disbursements made before the appropriation account closed if the disbursement
           was charged to the wrong appropriation. In addition, an agency may adjust its
           accounting records to include previously unreported disbursements made before
           the appropriation account closed. The disbursement must be properly
           chargeable to an obligation incurred during the appropriation’s period of
           availability. In order to adjust its records, an agency must have sufficient
           documentation (such as original invoices and obligation documents) to show that
           the adjustment is legal and changes an incorrect charge to a correct charge.
           (See Appendix E for a discussion of the Comptroller General decision and DoD
           guidance for closed accounts.)



Adjustment Approval
           DFAS Cleveland and the Office of the Assistant Secretary of the Navy
           (Financial Management and Comptroller) improperly approved $65.9 million in
           adjustments from the intergovernmental payments account to closed Navy
           appropriations. Without sufficient documentation, the adjustments should not
           have been approved and are, therefore, improper.

           The approvals were made to clear transactions from the Navy intergovernmental
           payments account. The approvals (June 7, 2001, for $53.5 million and
           October 19, 2001, for $12.4 million) were based on requests from the Director,
           DFAS Charleston and research conducted by the Navy.




6
    Report No. GAO-01-697, “Canceled DoD Appropriations: $615 Million of Illegal or Otherwise
    Improper Adjustments,” July 26, 2001, and Report No. GAO-02-747, “Canceled DoD Appropriations:
    Improvements Made But More Corrective Actions Are Needed,” July 31, 2002.
7
    Comptroller General of the United States, Decision B-251287, “Department of the Treasury Request
    for Opinion on Account Closing Provisions of the Fiscal Year 1991 National Defense Authorization
    Act,” September 29, 1993.


                                                    5
Documentation Supporting Adjustments
           The Navy and DFAS Charleston did not provide sufficient documentation to
           support the $53.5 million and $12.4 million requests for adjustments from the
           intergovernmental payments account to closed appropriations.

           Documentation. DFAS Charleston efforts to identify support for the
           $53.5 million in payments illustrate the problems in obtaining documentation to
           substantiate aged appropriation and payment data. DFAS Charleston
           discontinued research to obtain supporting documentation after determining they
           could not obtain the documentation needed to clear payments from the account.
           DFAS Charleston determined that further research efforts to obtain
           documentation (such as obligating documents and disbursement vouchers) were
           not cost-effective. In addition, most of the documents were no longer available
           because the age of the disbursements exceeded the 6 year, 3 month record
           retention requirement.8 The Under Secretary of Defense (Comptroller)/Chief
           Financial Officer staff emphasized that the documentation should be specific and
           conclusive and that no guesswork should be involved in identifying the specific
           appropriation to be charged.

           Therefore, DFAS Charleston decided to use data maintained in the Standard
           Accounting and Reporting System Headquarters Claimant Module to clear the
           $65.9 million in disbursements (87,579 transactions) from the intergovernmental
           payments account. The Standard Accounting and Reporting System
           Headquarters Claimant Module database was converted around 1992, from a
           previous version of the system. Records entered in the Standard Accounting
           and Reporting System Headquarters Claimant Module prior to 1985-1986 did
           not contain appropriation and payment information.

           Appropriation Identification. DFAS Charleston matched the fund codes in the
           system with the current fund code dictionary to identify the probable
           appropriation9 for each suspense transaction. DFAS Charleston used the current
           fund code dictionary to identify appropriations because the dictionary in use
           when the payments were made was no longer available. Some of the
           appropriations identified by the current fund codes were not in use when the
           transactions took place. The Navy used the unit identification code and the
           Julian date year that are included within the document number to identify the
           most likely appropriations to be charged. If the appropriation identified by the
           unit identification code did not agree with DFAS Charleston’s recommendation,
           the Navy contacted the major systems commands to determine the appropriation
           to be charged.


8
    The National Archives and Records Administration and DoD require financial records to be available
    for a period of 6 years, 3 months.
9
    The appropriation code for an expenditure account normally consists of seven digits. The first two
    digits identify the agency whose funds were spent (17 represents the Navy). The third digit identifies
    the fiscal year (0 represents FY 2000). The last four digits identify the account within a fund group
    (1804 is the account for Operations and Maintenance, Navy).


                                                       6
    Although the Navy, DFAS Charleston, and Office of Inspector General of the
    Department of Defense auditors tried, the reliability of the fund codes could not
    be assessed due to a lack of supporting documentation.

    Payment Date. The interfund program did not capture dates for payments
    made prior to 1986 so the Standard Accounting and Reporting System
    Headquarters Claimant Module did not contain either the payment date or the
    date the payment was recorded in the intergovernmental payments account.
    DFAS Charleston used January 1, 2001, as the payment date in the Standard
    Accounting and Reporting System Headquarters Claimant Module for each of
    the transactions. Therefore, the Navy and DFAS Charleston were not able to
    determine whether the payment was made during the period an obligation was
    available for expenditure. If the payment was made after the period of
    availability, then current appropriations available for the same purpose should
    be charged.



Adjustments Against Closed Appropriations
    In February 2002, DFAS Cleveland transferred $53.3 million in undistributed
    payments to closed appropriations from account F3875.004, “Budget Clearing
    Account (Suspense),” instead of from the intergovernmental payments account.
    In March 2002, DFAS Cleveland corrected the $53.3 million error in account
    F3875.004 and transferred the funds from the intergovernmental payments
    account.

    DFAS Cleveland made the adjustments to closed appropriations despite the
    results of a July 2001 GAO report on DoD compliance with the law (Report
    No. GAO-01-697, “Canceled DoD Appropriations: $615 Million of Illegal or
    Otherwise Improper Adjustments, July 26, 2001). The GAO reported that DoD
    did not have adequate systems, controls, and managerial attention to ensure that
    the $2.7 billion of adjustments affecting closed appropriation accounts made
    during FY 2000 were legal and otherwise proper. The GAO review of
    $2.2 billion of the $2.7 billion in adjustments found that approximately
    $615 million (28 percent) of the adjustments should not have been made.

       •   $146 million of adjustments violated specific provisions of appropriations
           law. The $146 million included $108 million charged to appropriation
           accounts that closed before the disbursements were made and $38 million
           charged to appropriations that had not been enacted at the time the
           disbursements were made.

       •   $364 million of adjustments should not have been made because the
           actual payments had been charged to the correct accounts.

       •   $105 million of improper adjustments lacked sufficient supporting
           documentation.




                                        7
Requirements for Documentation
    The improper approvals probably would not have occurred if DoD
    Regulation 7000.14-R, the “DoD Financial Management Regulation,”
    volume 3, chapter 11, “Unmatched Disbursements, Negative Unliquidated
    Obligations, In-transit Disbursements, and Suspense Accounts,” January 2001,
    and DFAS Cleveland Standard Operating Procedure 7310.05, “Closed
    Appropriation Transaction Processing,” October 25, 2001, had more clearly and
    specifically described the documentation required to support adjustments from
    the intergovernmental payments account to closed appropriations. See
    Appendix E for a discussion of DoD guidance for closed accounts.

    DoD Financial Management Regulation. The DoD Financial Management
    Regulation did not clearly and specifically describe the documentation required
    to identify the proper expenditure account or identify the responsible fund
    holder. The regulation did not describe the payment documentation required to
    verify whether the disbursement was made when the appropriation account to be
    charged was available to cover the disbursement. Furthermore, DoD guidance
    governing adjustments to closed accounts are spread across three chapters of the
    DoD Financial Management Regulation. The DoD Financial Management
    Regulation guidance is highly complex and detailed, and does not easily identify
    documents and evaluations needed to adjust the closed appropriation accounts.
    The inclusion of a flowchart would provide users of the regulation with a more
    comprehensive and clear understanding of the requirements for adjusting closed
    appropriations. The flowchart should map the decisions and documents required
    to adjust closed accounts and should be referenced to specific paragraphs in the
    guidance.

    DFAS Cleveland Standard Operating Procedure 7310.05. DFAS Cleveland
    Standard Operating Procedure 7310.05 states that the “documentation should
    consist of enough to support the adjustment.” At a minimum, the procedure
    should specify that the documentation include original vouchers, obligating
    documents, obligation records, and a history of payments on the obligation (to
    verify that the payment is not a duplicate). Adjustments involving interfund
    bills should include the original detailed billing record. The procedures should
    also require DFAS Cleveland accountants to coordinate with the Office of
    Assistant General Counsel, DFAS Cleveland, to determine the propriety of
    adjustments to closed appropriations. Counsel assistance would be useful in
    assuring compliance with the United States Code and Comptroller General
    decisions.

    Also, as part of DFAS Cleveland self-evaluation, DFAS Cleveland management
    control officials should review adjustments from the intergovernmental
    payments account to closed appropriations. Without this review, DFAS
    Cleveland will be unable to determine whether the adjustments were properly
    supported by documentation. See Appendix A for a discussion of the
    management control program review, including the adequacy of the DFAS
    Cleveland management controls and self-evaluation.




                                        8
DoD Legislative Proposal
    DoD developed a legislative proposal for clearing transactions from suspense
    accounts, including the intergovernmental payments account. Without
    legislative relief, the transactions could remain suspended in these accounts
    indefinitely and never be charged to DoD appropriations. In December 2002, a
    revised version of the DoD proposed legislation was included in the “Bob Stump
    National Defense Authorization Act for FY 2003,” (Public Law 107-314). DoD
    should ensure that its implementing regulation prescribes appropriate offsetting
    adjustments to the appropriation accounts.



Conclusion
    The Navy accounts for a significant portion of the balance in the DoD
    intergovernmental payments accounts. As of February 28, 2002, 91.8 percent
    ($732.4 million) of the balance in the DoD accounts maintained by the
    Department of the Treasury were Navy funds. As indicated by our audit
    results, many transactions comprising the accounts maintained by Navy
    accounting activities are aged. Documentation no longer exists for transactions
    to conclusively demonstrate which appropriation should be charged.

    The Navy and DFAS Charleston have made bona fide attempts to identify
    appropriations from available records. However, the DoD Financial
    Management Regulation did not provide sufficient guidance on the
    documentation required to support adjustment to closed appropriations.
    Therefore, the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer should revise guidance to specify the documentation required to properly
    support adjustments to closed appropriations. The guidance should describe the
    documentation required to identify the proper expenditure account, the
    responsible fund holder, and the payment date. In addition, the guidance should
    include a flowchart mapping the decisions and documents required to adjust
    closed accounts referenced to specific paragraphs in the guidance. The
    improved guidance will assist accounting personnel in determining the minimum
    documentation that they can accept as support for adjustments to closed
    appropriations.

    DFAS Cleveland should revise its standard operating procedures, reverse the
    $53.3 million adjustment to closed appropriations and suspend adjustment
    action. Management should expand its self-evaluations of management controls
    to cover adjustments to closed appropriations to provide the oversight and
    improvement these issues require. The adjustments to closed Navy
    appropriations were improper and reflect an overall weakness in the control
    environment for the DoD FBWT account.




                                       9
Recommendations and Management Comments
    1. We recommend that the Under Secretary of Defense
       (Comptroller)/Chief Financial Officer revise DoD Regulation 7000.14-R,
       the “DoD Financial Management Regulation,” volume 3, chapter 11
       “Unmatched Disbursements, Negative Unliquidated Obligations, In-
       transit Disbursements, and Suspense Accounts,” January 2001, to:

       a. Specify the documentation required to support adjustments from
          account F3885, “Undistributed Intergovernmental Payments,” to
          closed appropriations. The guidance should describe the
          documentation required to identify the proper expenditure account,
          the responsible fund holder, and the payment date.

       b. Incorporate a flowchart mapping the decisions and documents
          required to adjust closed accounts referenced to specific paragraphs
          in the guidance.

    Management Comments. The Under Secretary of Defense
    (Comptroller)/Chief Financial Officer concurred and agreed to revise the DoD
    Financial Management Regulation to describe the documentation required to
    identify the proper expenditure account, the responsible fund holder, and the
    payment date, and to include a flowchart mapping the decisions and documents
    required to adjust closed accounts.

    2. We recommend that the Director, Defense Finance and Accounting
       Service Cleveland revise DFAS Cleveland Standard Operating
       Procedure 7310.05, “Closed Appropriation Transaction Processing,”
       October 25, 2001, to:

           a. Specify the documentation required to support adjustments from
              account F3885, “Undistributed Intergovernmental Payments,” to
              closed appropriations. The procedure should specify that the
              documentation include original vouchers, obligating documents,
              obligation records, and a history of payments on the obligation
              (to verify that the payment is not a duplicate).

           b. Require DFAS Cleveland accountants to coordinate with the
              Office of Assistant General Counsel, DFAS Cleveland, to
              determine the propriety of adjustments from account F3885,
              “Undistributed Intergovernmental Payments,” to closed
              appropriations.

    Management Comments. The Acting Director, DFAS Cleveland concurred
    and agreed to revise Standard Operating Procedure 7310.05 to clarify the
    supporting documentation required to identify the proper appropriation for
    adjustments and to add examples of documentation, based on coordination with
    the Office of the Assistant General Counsel, to identify the appropriation for
    transactions in suspense accounts.



                                       10
3. We recommend that the Director, Defense Finance and Accounting
   Service Cleveland:

       a. Reverse the $53.3 million adjustment to closed appropriations
          and suspend adjustment action.

       b. Review adjustments from the intergovernmental payments
          account to closed appropriations as part of DFAS Cleveland
          self-evaluations.

Management Comments. The Acting Director, DFAS Cleveland concurred
and agreed to reverse the transactions posted to closed appropriations back to
account F3885 and to evaluate the adjustments process for the FY 2003 Annual
Statement of Assurance.




                                  11
Appendix A. Scope and Methodology
   We reviewed actions taken by the Navy, DFAS Cleveland, and DFAS
   Charleston to clear charges from the intergovernmental payments account for
   authorized accounting activity 68342. Specifically, we reviewed $65.9 million
   of approved adjustments from the intergovernmental payments account to closed
   appropriations (87,579 transactions) and related research actions, and electronic
   files. We also reviewed the methodology that DFAS Charleston and the Navy
   used to identify the appropriation for each transaction. In addition, we
   analyzed appropriation law and a Comptroller General decision on adjusting
   closed appropriation accounts. We also reviewed DoD Regulation 7000.14-R,
   the “DoD Financial Management Regulation,” and DFAS Cleveland standard
   operating procedures for rules on processing transactions against closed
   appropriations and documentation requirements to support adjustments from the
   intergovernmental payments account to closed appropriations. Also, we
   reviewed a legislative proposal for clearing transactions from the
   intergovernmental payments account. Further, we reviewed U.S. Treasury and
   DoD guidance for the intergovernmental payments account.

   We interviewed operating personnel from the Navy, DFAS Cleveland, and
   DFAS Charleston. We coordinated our audit efforts with personnel from the
   Deputy General Counsel in the Office of the Inspector General of the
   Department of Defense and the GAO.

   We performed this audit from September 2001 through June 2002 in accordance
   with generally accepted government auditing standards. We included tests of
   management controls considered necessary.

   General Accounting Office High-Risk Area. The GAO has identified several
   high-risk areas in the Department of Defense. This report provides coverage of
   the Defense Financial Management high-risk area.

   Use of Computer-Processed Data. We relied on computer-processed payment
   data from the intergovernmental payments account to support the finding. The
   payment data is contained in the Standard Accounting and Reporting System-
   Headquarters Claimant Module database maintained at DFAS Charleston for
   Navy-authorized accounting activity 68342. We did not perform a formal
   reliability assessment of the computer-processed payment data. We could not
   assess the accuracy of the computer-processed payment data because vouchers
   and other documentation supporting the payments were no longer available for
   review. We did not find errors that would preclude the use of the computer-
   processed payment data to meet the audit objectives or that would change the
   conclusions in the report.




                                      12
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    Under Secretary of Defense (Comptroller)/Chief Financial Officer and DFAS
    Cleveland controls over adjusting closed appropriations. Specifically, we
    reviewed DoD Regulation 7000.14-R, the “DoD Financial Management
    Regulation,” volume 3, January 31, 2001, and DFAS Cleveland Standard
    Operating Procedure 7310.05, “Closed Appropriation Transaction Processing,”
    October 25, 2001, for controls over adjustments from the intergovernmental
    payments account to closed appropriations. We reviewed DFAS Cleveland
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. The Under Secretary of Defense
    (Comptroller)/Chief Financial Officer controls were generally adequate.
    However, we identified material management control weaknesses for DFAS
    Cleveland, as defined by DoD Instruction 5010.40. DFAS Cleveland
    management controls were not adequate to ensure that adjustments from the
    intergovernmental payments account to closed appropriations were properly
    supported by documentation. Recommendations in this report, if implemented,
    will improve DFAS Cleveland management controls over adjustments from the
    intergovernmental payments account to closed appropriations. A copy of the
    report will be provided to the senior official responsible for management
    controls in DFAS.

    Adequacy of Management Self-Evaluation. DFAS Cleveland did not identify
    adjustments from the intergovernmental payments account to closed
    appropriations within its assessable units and, therefore, did not identify the
    material management control weakness identified by the audit.




                                       13
Appendix B. Prior Coverage
    The GAO and the Inspector General of the Department of Defense (IG DoD)
    have conducted multiple reviews related to financial statement issues. GAO
    reports can be accessed on the Internet at http://www.gao.gov. IG DoD reports
    can be accessed on the Internet at http://www.dodig.osd.mil/audit/reports. The
    audit organizations have issued the following reports related to financial
    statement issues involving the FBWT account.


General Accounting Office
    Report No. GAO-02-747, “Canceled DoD Appropriations: Improvements
    Made But More Corrective Actions Are Needed,” July 31, 2002

    Report No. GAO-01-697, “Canceled DoD Appropriations: $615 Million of
    Illegal or Otherwise Improper Adjustments,” July 26, 2001

    Report No. GAO-01-847, “Financial Management: Improvements in Air Force
    Fund Balance With Treasury Reconciliation Process,” July 18, 2001

    Report No. GAO/AIMD-99-271, “Financial Audit: Issues Regarding
    Reconciliations of Fund Balances With Treasury Accounts,” September 17,
    1999

    Report No. GAO/AIMD-99-3, “Financial Audit: Issues Regarding
    Reconciliations of Fund Balances With Treasury Accounts,” October 14, 1998

    Report No. GAO/AIMD-97-104R, “Financial Audit: Reconciliation of Fund
    Balances With Treasury,” June 24, 1997


Inspector General of the Department of Defense
    IG DoD Report No. D-2002-019, “Checks Issued Differences for Deactivated
    Disbursing Stations,” November 28, 2001

    IG DoD Report No. D-2001-024, “Performance Measures for Disbursing
    Stations,” December 22, 2000

    IG DoD Report No. D-2000-123, “Disclosure of Differences in Deposits,
    Interagency Transfers, and Checks Issued in the FY 1999 DoD Agency-Wide
    Financial Statements,” May 18, 2000

    IG DoD Report No. D-2000-044, “Reconciliation of Differences Reported for
    Checks Issued by the Defense Finance and Accounting Service Columbus
    Center Disbursing Stations,” November 30, 1999



                                      14
Inspector General of the Department of Defense (cont’d)
     IG DoD Report No. 99-226, “Interagency Transfer Reconciliations at Defense
     Finance and Accounting Service Columbus Center Disbursing Stations,”
     July 28, 1999

     IG DoD Report No. 99-211, “Deposit Reconciliations at Defense Finance and
     Accounting Service Columbus Center Disbursing Stations,” July 9, 1999




                                      15
Appendix C. Statement of Transactions,
            Statement of Interfund
            Transactions, and the Fund Balance
            With Treasury Account
           As discussed in our prior reports on the FBWT account,* each DoD disbursing
           station submits its monthly Statement of Accountability and Statement of
           Transactions to a finance center. Army disbursing stations report to Defense
           Finance and Accounting Service (DFAS) Indianapolis, Indianapolis, Indiana;
           Navy disbursing stations report to DFAS Cleveland, Cleveland, Ohio; Air Force
           disbursing stations report to DFAS Denver, Denver, Colorado; and U.S. Army
           Corps of Engineers (Corps) disbursing stations report to the Corps Finance
           Center, Millington, Tennessee.

           Each finance center combines the Statements of Accountability received from its
           disbursing stations and electronically submits a combined Statement of
           Accountability to the Department of the Treasury using the Government On-line
           Accounting Link System II, a Federal financial telecommunications network.
           The finance centers also combine the Statements of Transactions and the
           Statements of Interfund Transactions and submit the combined statement to the
           Department of the Treasury every month.

           The Department of the Treasury records the data from the statements in the
           FBWT account maintained for each appropriation in the U.S. Treasury’s
           accounting and reporting system. Each month, the Department of the Treasury
           reports the outstanding balance in the FBWT account to each Government
           agency on Department of the Treasury Financial Management Service
           Form 6653, “Undisbursed Appropriation Account Ledger.”

           The Department of the Treasury sends the Undisbursed Appropriation Account
           Ledger to each agency on microfiche and electronically through the Government
           On-line Accounting Link System II. DFAS uses the Undisbursed Appropriation
           Account Ledger to adjust budgetary data to be reported monthly on SF 133,
           “Report on Budget Execution,” and the Department of the Treasury Financial
           Management Service Form 2108, “Year-end Closing Statement.”




*
    IG DoD Report No. D-2002-019, “Checks Issued Differences for Deactivated Disbursing Stations,”
    November 28, 2001;.and IG DoD Report No. D-2001-024, “Performance Measures for Disbursing
    Stations,” December 22, 2000.




                                                  16
Appendix D. U.S. Treasury and DoD Guidance
            for the Intergovernmental
            Payments Account
   U.S. Treasury Guidance. Volume I, part 2, chapter 1500, “Description of
   Accounts Relating to Financial Operations,” April 5, 2001, of the Treasury
   Financial Manual, describes Federal accounts. Section 1520.25, “Clearing
   Accounts,” states that the Department of the Treasury Financial Management
   Service established clearing accounts to temporarily hold unidentified collections
   that subsequently will be credited to the proper receipt or expenditure account of
   the Federal entity. Clearing accounts are preceded by an “F” followed by a
   fund account symbol in the “3800” series group. Agencies should use account
   F3885, “Undistributed Intergovernmental Payments,” to temporarily credit
   unclassified transactions between Federal agencies, including On-line Payment
   and Collection transactions.

   DoD Guidance. DoD Regulation 7000.14-R, “DoD Financial Management
   Regulation,” volume 3, chapter 11, “Unmatched Disbursements, Negative
   Unliquidated Obligations, In-transit Disbursements, and Suspense Accounts,”
   January 2001, requires accounting offices to use clearing account F3885,
   “Undistributed Intergovernmental Payments,” to record intergovernmental
   payments with an invalid or incorrect fund citation while the transaction is under
   research. A payment transaction with an invalid or incorrect fund citation may
   not be able to be matched to its corresponding obligation or recorded against its
   proper expenditure account.

   Section 1115, “Budget Clearing Account (Suspense),” F3875, and
   “Undistributed Intergovernmental Payments,” F3885, requires accounting
   offices to use account F3885 to record questionable On-line Payment and
   Collections, SF 1080, or interfund transactions, when the questionable fund
   citation cannot be corrected before month-end reporting. Accounting offices
   and disbursing stations must resolve questionable On-line Payment and
   Collections and SF 1080 transactions in account F3885 within 60 days and
   questionable interfund transactions within 6 months of initially recording a
   charge into the account.

   In addition, section 1115 requires DFAS to establish procedures for aging,
   monitoring, and reporting transactions recorded in account F3885. The DFAS
   centers must apportion and distribute year-end balances in account F3885 to the
   predominant appropriation accounts for reporting to the Department of the
   Treasury at fiscal year-end. After year-end, these apportioned balances must be
   transferred back to the applicable F3885 account. Further, section 1117,
   “Maintenance of Adequate Records,” requires DoD Components and accounting
   offices to maintain an audit trail with adequate records to substantiate all
   transactions, amounts, and actions with respect to the research and clearing of
   unmatched disbursements.




                                       17
DoD Regulation 7000.14-R, volume 11B, chapter 61, “Progress Billings,
Reimbursements, and Revenue Recognition,” December 1994, and DoD
Manual 4000.25-7M, “Military Standard Billing System (MILSBILLS),”
February 19, 1988, provide additional requirements regarding interfund
transactions. The Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer is replacing chapter 61 with chapter 11, “Reimbursements and
Revenue Recognition.”




                                  18
Appendix E. Comptroller General Decision and
            DoD Guidance for Closed Accounts
   Comptroller General Decision. Comptroller General Decision B-251287,
   “Department of the Treasury Request for Opinion on Account Closing
   Provisions of the Fiscal Year 1991 National Defense Authorization Act,”
   September 29, 1993, discusses a Department of the Treasury (Treasury) request
   for an opinion on questions raised by the DoD regarding the account closing
   provisions of the FY 1991 National Defense Authorization Act (Public
   Law 101-510). Treasury asked two specific questions. First, Treasury asked
   whether it may restore either unobligated or obligated appropriation account
   balances that were canceled due to reporting errors or clerical mistakes. The
   Comptroller General concluded that Treasury may do so. The Comptroller
   General stated that:

          In this sense, the Treasury adjustment of the accounting records does no more than
          place the funds back into the account where they otherwise belong. As the Supreme
          Court observed in a related situation, it “would be unrealistic . . . to require
          congressional authorization before a data processor who misplaces a decimal can ‘undo’
          an inaccurate transfer of Treasury funds.” Republic National Bank of Miami v. United
          States, 506 U.S. 80, 89-92,113 S. Ct. 554, 561 (1992).

          We wish to emphasize, however, that Treasury’s authority to correct the accounts
          relates only to obvious clerical errors such as misplaced decimals, transposed digits, or
          transcribing errors that result in inadvertent cancellations of budget authority, and is not
          meant to serve as a palliative for deficiencies in DoD’s accounting systems. . . .

          In our view, the type of clerical errors that Treasury can correct should typically
          manifest themselves soon after an account is closed. The passage of time only
          magnifies the difficulty inherent in reconstructing the facts needed to establish the
          error. Therefore, we recommend that Treasury establish reasonable time limits within
          which agencies must submit requests for correction of reporting errors resulting from
          obvious clerical mistakes.

   Second, Treasury asked whether it may record as a payment from a canceled
   account a disbursement made prior to cancellation of the account. The
   Comptroller General concluded that Treasury may do so. The Comptroller
   General stated that:

          Since the liquidation of the obligation eliminates the budget authority, leaving nothing
          to be canceled, recording the disbursement is neither a new obligation of, nor an
          expenditure from, a closed account. It is merely an accounting entry to reflect the
          liquidation of an obligation validly incurred and liquidated prior to cancellation. . . .

          The liquidation of the obligation eliminates the underlying budget authority, leaving
          nothing to be canceled. It completes the transaction and discharges the government’s
          liability. The recording of the disbursement made prior to cancellation of the expired




                                             19
       account is simply an accounting entry to reflect the completion of the transaction before
       cancellation of the expired account. We see no reason why DoD and Treasury should
       not record these disbursements for canceled “M” account or expired account balances.

       Accordingly, if DoD is able to establish to the satisfaction of the Treasury that a validly
       recorded obligation in a canceled appropriation account was liquidated before
       cancellation, then Treasury may adjust the canceled appropriation account balance to
       reflect the disbursement. If a disbursement that was made before cancellation of an
       appropriation account cannot be matched with a recorded obligation of a canceled
       account, but DoD can establish to the satisfaction of Treasury that the disbursement
       represents payment of a valid unrecorded obligation otherwise properly chargeable
       against the canceled appropriation account, then Treasury may adjust the canceled
       account balance to reflect the disbursement.

DoD Guidance. DoD Regulation 7000.14-R, the “DoD Financial Management
Regulation,” volume 3, chapter 10, “Accounting Requirements for Expired and
Closed Accounts,” December 2000, implements certain provisions of title 31,
United States Code, relating to expired and closed accounts. Chapter 10
requires accounting offices to charge disbursements to canceled appropriations
when a disbursement is properly made before the cancellation of the
appropriation to which an obligation was charged, but is not identified and
matched with the proper obligation until after the cancellation of the
appropriation.

Chapter 10 cites Treasury Bulletin 94-04, “Account Closing Provisions of the
FY 1991 National Defense Authorization Act,” which contains procedures for
requesting a correction to a closed account. Agencies may request a correction
for:

   •   clerical errors such as misplaced decimals, transposed digits, or
       transcribing errors resulting in inadvertent cancellations of budget
       authority, and

   •   errors made in classifying a payment made prior to the closing of an
       account, but not discovered until after the account was closed.

For classification errors, the Treasury Department will accept reporting to
correctly classify payments previously reported to suspense/clearing accounts,
or correct classification errors between current and closed accounts.

Chapter 10 also discusses Comptroller General Decision B-251287.3,
November 1, 1995, which supports Treasury Department adjustment of DoD
canceled appropriation account balances to reflect disbursements made before
closure of the accounts. The Comptroller General decision requires that the
DoD support any adjustment with documentary evidence and that the adjustment
withstand audit scrutiny. The Office of the Under Secretary of Defense
(Comptroller)/Chief Financial officer issued procedures that are included in
chapter 11 of DoD Regulation 7000.14-R to implement Comptroller General
Decision B-251287.3.




                                          20
           DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,”
           volume 3, chapter 11, “Unmatched Disbursements, Negative Unliquidated
           Obligations, In-transit Disbursements, and Suspense Accounts,” January 2001,
           includes requirements for researching and correcting unmatched disbursements
           and disbursements in suspense/clearing accounts. Section 1115, “Budget
           Clearing Account (Suspense),” F3875, and “Undistributed Intergovernmental
           Payments,” F3885, requires accounting offices to transfer each interfund
           disbursement recorded in account F3885 to its proper expenditure account
           within 6 months. Accounting offices must transfer each intergovernmental
           disbursement recorded in account F3885, other than interfund disbursements, to
           its proper expenditure account within 60 days. If the disbursement is not
           transferred to its proper expenditure account within these timeframes, the
           accounting office must charge the responsible fund holder. After a
           disbursement is transferred from a clearing account to a fund holder, the
           disbursement is treated as a matched disbursement, an unmatched disbursement,
           or a negative unliquidated obligation, as applicable. Accounting offices must
           obligate unmatched disbursements and negative unliquidated obligations as
           required by section 1105.

           However, section 1115 does not clearly and specifically describe the
           documentation (such as vouchers, On-line Payment and Collection screens,
           SF 1080, billing records) required to identify the proper expenditure account or
           identify the responsible fund holder. If documentation is not available, then the
           accounting office should not transfer the disbursement to an expenditure account
           (either a current, expired, or closed appropriation), or charge a fund holder.
           The disbursement should remain suspended in the clearing account.

           Section 1115 does not describe the payment documentation required to verify
           whether the disbursement was made when the appropriation account to be
           charged was available to cover the disbursement. The payment documentation
           must include the date of payment. Documentation on the payment date is
           essential to prevent illegal or improper adjustments to closed appropriations.* If
           documentation on the payment date is not available, then the accounting office
           should not transfer the disbursement to an expenditure account or charge a fund
           holder. The disbursement should remain suspended in the clearing account.

           Section 1105, “Responsibilities for Funding Overaged Unmatched
           Disbursements and Negative Unliquidated Obligations,” establishes
           responsibilities for recording transactions when the accounting office has, or
           does not have the obligation document. This section also identifies accounting
           office responsibilities for accounting records and controls over closed
           appropriations.



*
    The GAO has determined that “An adjustment to a closed appropriation account is illegal if the
    appropriation account being charged (1) closed before the initial disbursement was made or (2) had not
    yet been enacted when the initial disbursement was made. Otherwise improper adjustments occur when
    accounting records show that no adjustment was necessary because the initial payment was charged
    correctly or there is not sufficient documentation available to determine if the initial disbursement
    charge is incorrect and that the adjustment corrected an error.”


                                                     21
Section 1109, “Corrections and Postings of Prior Disbursements Involving
Appropriated Funds,” cites procedures for recording corrections of prior
disbursements erroneously charged to the wrong obligation. This section
includes procedures for corrections of closed appropriations when the
disbursement occurred before closure, including procedures to follow whether
the correct obligation is identified.

DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,”
volume 3, chapter 8, “Standards for Recording and Reviewing Commitments
and Obligations,” November 2000, sets forth the basis for determining the
amount and accounting period to record commitments and obligations, including
when the official accounting records do not contain an obligation prior to
disbursement. Chapter 8 permits obligations to be recorded only when
supported by documentary evidence of the transaction. Prior to recording an
obligation, the accounting office responsible for the official accounting records
of the fund holder must have a copy of the obligating document. The
accounting office must verify that the document previously was not recorded in
the official accounting records under the applicable obligation reference number
indicated. The verification process also must include an appropriate review
(e.g., review by amount, appropriation, and vendor name) to determine whether
the obligation is recorded under another reference number, to include
unrecorded modifications that are controlled in other obligating documents.

DFAS Cleveland Standard Operating Procedure 7310.05, “Closed
Appropriation Transaction Processing,” October 25, 2001, establishes DFAS
Cleveland procedures for transactions citing closed appropriations. Section 7.4
requires the discovering office to review the voucher and attachments to identify
erroneous disbursements that require an adjustment to the unobligated balance of
a closed appropriation. The section states that the “documentation should
consist of enough [documentation] to support the adjustment.” The discovering
office and accounting office should agree on the propriety of the proposed
adjustment.




                                   22
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Cleveland
       Director, Defense Finance and Accounting Service Charleston

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         24
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments




                       25
26
Defense Finance Accounting Service Comments




                      27
S




    28
29
Team Members
The Defense Financial Auditing Service, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Brian M. Flynn
Robert E. Benefiel, Jr.
Michael L. Davitt
Jose J. Delino
Mark S. Henricks
John C. Petrucci
William W. Lemmon
Michael A. Polak
Catherine Bird
Ann Thompson
